Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

April 22, 2021
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Johnson & Johnson v. Ingham, No. 20-1223

Dear Mr. Harris:
We represent Petitioners in this matter. We write to request under the Court’s COVID-19
order that distribution of the petition and brief in opposition be delayed by seven days to May 11,
2021. We contacted counsel for Respondents regarding this request, who advise that they have no
objection.
The COVID-19 pandemic presents personal and logistical challenges for Petitioners’
counsel, who must balance their work commitments—including this case—with continued childcare and other responsibilities, all while still working fully remotely. Respondents’ unanticipated
early filing of the brief in opposition makes it difficult to add the reply brief in this case to the
already significant number of briefs Petitioners’ counsel has due between now and May 4,
including (1) a brief in opposition in Just Energy Marketing Corp v. Hurt, No. 20-1093, due April
28; (2) an opening brief in In re Citibank August 11, 2020 Wire Transfers, No. 21-487 (2d Cir.),
due April 29; and (3) a reply brief in support of certiorari in National Coalition for Men v. Selective
Service System, No. 20-928, which is scheduled for distribution on May 4. In addition, two
attorneys responsible for drafting the reply brief are scheduled to receive their second dose of the
COVID-19 vaccine in the next seven days, and they may require time to recover before resuming
work on the brief.
Thank you for your kind courtesies.

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai Silicon Valley Singapore
Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
For more information see www.hoganlovells.com

The Honorable Scott S. Harris
Clerk of the Court

-2-

April 22, 2021

Sincerely,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel for Petitioners
cc:

Kenneth W. Starr, Counsel for Respondents, Lanier Law Firm (by e-mail)

